         Office of Inspector General




January 10, 2006

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT:      Audit Report – Fiscal Year 2005 Postal Service Financial Statements
              Audit – Eagan Information Technology and Accounting Service Center
              (Report Number FT-AR-06-009)

This report presents the results of our audit of the financial activities and
accounting records at the Information Technology and Accounting Service Center
(IT/ASC) in Eagan, Minnesota, for the fiscal year ended September 30, 2005 (Project
Number 05BM001FT000). The Postal Reorganization Act of 1970, as amended,
requires annual audits of the Postal Service’s financial statements. We conducted this
audit in support of the independent public accounting firm’s overall audit opinion on the
Postal Service’s financial statements.

Management’s financial accounting policies and procedures conformed with accounting
principles generally accepted in the United States and provided for an adequate internal
control structure. Additionally, accounting transactions affecting the general ledger
account balances at the Eagan IT/ASC were fairly stated in the national trial balance in
accordance with accounting principles generally accepted in the United States and
conformed with the general classification of accounts on a basis consistent with that of
the previous year. Also, we did not identify any instances of noncompliance with laws
and regulations that have a direct and material effect on the financial statements.

In addition, we identified an opportunity to improve Postal Service operations related
to reporting salary overpayments to the Internal Revenue Service. This item was
not material to the financial statements and did not affect the overall adequacy of
internal controls. Recommendations noted in this report were communicated to
management through an interim report. Accordingly, we did not propose any further
recommendations.

Management agreed with our previously reported recommendations and has initiatives
in progress addressing the issues in this report. Management’s comments and our
evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Lorie Siewert,
director, Financial Statements, or me at (703) 248-2300.


   E-Signed by Inspector General
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Acting Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: Richard J. Strasser, Jr.
    Vincent H. DeVito, Jr.
    Jon T.Stratton
    Elizabeth L. Novillis
    Dean R. Rodman
    Margaret A. Weir
    Steven R. Phelps
Fiscal Year 2005 Postal Service Financial Statements Audit –                                        FT-AR-06-009
 Eagan Information Technology and Accounting
 Service Center

                                            INTRODUCTION
    Background                    The Eagan Information Technology and Accounting Service
                                  Center (IT/ASC) is a large centralized accounting and
                                  disbursement center. The center processes payroll,
                                  maintains the general ledger, reconciles financial data, and
                                  maintains cash and receivable accounts.

                                  The Eagan IT/ASC is one of three accounting service
                                  centers Postal Service-wide.1 The Postal Service Office of
                                  Inspector General (OIG) will issue separate financial
                                  statements audit reports for headquarters and the
                                  San Mateo and St. Louis IT/ASCs. Further, in addition to
                                  the overall opinion on the Postal Service's financial
                                  statements, the Board of Governors’ independent public
                                  accounting firm, contracted to express an opinion on the
                                  financial statements, will issue separate reports on the
                                  Postal Service's internal controls and compliance with laws
                                  and regulations. Also, the OIG will issue a separate report
                                  for the audit of the fiscal year (FY) 2005 information system
                                  controls at the Eagan, San Mateo, and St. Louis IT/ASCs.

    Objectives, Scope,            The objectives of the audit were to determine whether:
    and Methodology
                                   •   The financial accounting policies and procedures of the
                                       Eagan IT/ASC provided for an adequate internal control
                                       structure and were in compliance with accounting
                                       principles generally accepted in the United States.

                                   •   Accounting transactions at the Eagan IT/ASC affecting
                                       the general ledger account balances for assets,
                                       liabilities, equity, income, expenses, and commitments
                                       of the Postal Service were fairly stated in the national
                                       trial balance in accordance with accounting principles
                                       generally accepted in the United States.

                                   •   General ledger account balances conformed with the
                                       general classification of accounts of the Postal Service
                                       on a basis consistent with that of the previous years.2




1
 The other IT/ASCs are located in San Mateo, California, and St. Louis, Missouri.
2
 This objective is applicable to work done at the Eagan IT/ASC, based on feedback from OIG teams at the St. Louis
and San Mateo IT/ASC sites and Postal Service Headquarters.



                                                        1
Fiscal Year 2005 Postal Service Financial Statements Audit –                                     FT-AR-06-009
 Eagan Information Technology and Accounting
 Service Center


                                  •   The Postal Service was in compliance with laws and
                                      regulations that have a material and direct effect on the
                                      financial statements as a whole.

                                 To accomplish our objectives, we conducted fieldwork from
                                 November 2004 through November 2005. We assessed
                                 internal controls, tested transactions, and verified account
                                 balances. We conducted this audit from November 2004
                                 through January 2006 in accordance with generally
                                 accepted government auditing standards and included such
                                 tests of internal controls as we considered necessary under
                                 the circumstances. We discussed our observations and
                                 conclusions with management officials and included their
                                 comments where appropriate.

                                 We relied on computer-generated data from several Postal
                                 Service financial systems, including the Accounting Data
                                 Mart, General Ledger, Time and Attendance Collection
                                 System (TACS), Pay Calculation, Complement
                                 Management and Selection System, and Employee Master
                                 File. We performed specific internal control and transaction
                                 tests on these systems’ data, to include tracing selected
                                 financial information to supporting source records. For
                                 example, we traced payroll system reports to original journal
                                 voucher transactions.

    Prior Audit Coverage         As part of our audit, we followed up on prior years’
                                 recommendations related to our financial statements audits
                                 at the Eagan IT/ASC.3 Postal Service management took
                                 the following corrective actions on our recommendations:

                                 The Postal Service issued eight management instructions
                                 relating to back pay award computations, including one
                                 during FY 2005. Postal Service personnel stated these
                                 management instructions alleviated the need for a
                                 Web-based self-training program.

                                 While substantial progress was made, the following item
                                 remains unresolved:



3
 Fiscal Year 1999 Postal Service Financial Statement Audit – Eagan Information Service Center (Report
Number FR-AR-00-006, dated February 25, 2000) and Fiscal Year 2004 Postal Service Financial Statements Audit –
Eagan Information Service Center (Report Number FT-AR-05-005, dated January 10, 2005).



                                                      2
Fiscal Year 2005 Postal Service Financial Statements Audit –                      FT-AR-06-009
 Eagan Information Technology and Accounting
 Service Center


                                Postal Service employees had access authority within
                                TACS to enter or change their own work and leave hours.
                                Postal Service initially agreed to review the access levels
                                and issue clearer guidance by June 30, 2005. During
                                FY 2005, Postal Service initiated the review and provided a
                                revised target completion date of December 31, 2005. We
                                will continue to monitor this area as part of our annual
                                financial statements audit work.




                                                     3
Fiscal Year 2005 Postal Service Financial Statements Audit –                                       FT-AR-06-009
 Eagan Information Technology and Accounting
 Service Center

                                           AUDIT RESULTS
                                  The audit disclosed management’s financial accounting
                                  policies and procedures conformed with accounting
                                  principles generally accepted in the United States and
                                  provided for an adequate internal control structure.
                                  Additionally, accounting transactions at the Eagan IT/ASC
                                  that affected the general ledger account balances were
                                  fairly stated in the national trial balance in accordance with
                                  accounting principles generally accepted in the United
                                  States. Also, we did not identify any instances of
                                  noncompliance with laws and regulations that have a direct
                                  and material effect on the financial statements.

                                  Although we did not propose any adjusting journal entries to
                                  the center’s trial balance as of September 30, 2005, we
                                  identified an opportunity to improve Postal Service
                                  operations related to reporting salary overpayments to the
                                  Internal Revenue Service (IRS). This item was not material
                                  to the financial statements and did not affect the overall
                                  adequacy of internal controls.

 Interim Report                   During the course of our financial statements audit, we
                                  determined that the Postal Service did not always follow IRS
                                  employment tax regulations for reporting salary
                                  overpayments when employees did not repay the entire
                                  amount by the end of the calendar year in which the Postal
                                  Service made the payment.4 Specifically, as of the end of
                                  Postal Service calendar year 2004, approximately
                                  $5.5 million in salary overpayments established during that
                                  calendar year remained outstanding.5

                                  Also, the Postal Service incorrectly adjusted $2.3 million in
                                  social security wages related to prior year salary
                                  overpayments. As a result, the Postal Service incorrectly
                                  reported employee income and related taxes to the IRS on
                                  its Form 941, Employer’s Quarterly Federal Tax Return, for
                                  that period.

                                  We recommended management revise Postal Service
                                  policy to comply with IRS employment tax regulations. In

4
  Management Advisory – Reporting Salary Overpayments to the Internal Revenue Service (Report Number FT-MA-
05-002, dated September 28, 2005).
5
  Transactions occurring from the beginning of pay period 1 (December 13, 2003) through the end of pay period 27
(December 24, 2004).



                                                        4
Fiscal Year 2005 Postal Service Financial Statements Audit –                       FT-AR-06-009
 Eagan Information Technology and Accounting
 Service Center

                                addition, we recommended they establish accounts
                                receivable for the gross amount due, including all taxes, and
                                communicate tax implications to employees.

                                The Postal Service is in the process of implementing
                                programming changes to ensure compliance.

 Corrective Actions             Management agreed with our finding and recommendations
 Taken                          and plans to implement corrective action by the end of the
                                third quarter of FY 2006. Since we communicated these
                                recommendations to management through an interim report,
                                we are not providing any further recommendations.

 Management’s                   Regarding the interim finding on salary overpayments,
 Comments                       management initiated software changes to establish
                                accounts receivable for the gross amount due and to
                                correctly report employee income and taxes related to
                                salary overpayments. Corrective action is scheduled to be
                                completed by the third quarter of FY 2006.

                                Management also acknowledged their agreement to provide
                                clearer guidance on TACS access authority by
                                December 31, 2005, and provided a memorandum to area
                                finance managers addressing the issue on December 5,
                                2005. Management’s comments, in their entirety, are
                                included in the appendix of this report.

 Evaluation of                  Management’s comments are responsive to our interim and
 Management’s                   prior recommendations and should correct the issues
 Comments                       identified in the findings. We will continue to monitor these
                                areas as part of our annual financial statements audit.




                                                     5
Fiscal Year 2005 Postal Service Financial Statements Audit –   FT-AR-06-009
 Eagan Information Technology and Accounting
 Service Center

                     APPENDIX. MANAGEMENT’S COMMENTS




                                                     6
Fiscal Year 2005 Postal Service Financial Statements Audit –   FT-AR-06-009
 Eagan Information Technology and Accounting
 Service Center




                                                     7
